' %

IN THE SUPREME COURT OF THE UNITED STATES
Sean M. Donahue. Petitioner
v.
Pennsylvania

Case Below: Superior Court of Pennsylvania, Harrisburg Office
(17 MDM 2019)

CERTIFICATE OF SERVICE
I verify that the below number of companies were served on the below
indicated date to the below indicated entities via USPS first class mail.

Original Plus 10 Copies:
Clerk of the Court
Supreme Court of the United States
1 First Street. NE
Washington, DC 20543

One Copy:
Dauphin County District Attorney's Office
101 Market Street, 2nd Floor
Harrisburg, PA 17101
Respectfully Submitted,

/

Date

'rd*..
/-^Z
Sean M. Donahue
625 Cleveland Street
Hazleton, PA 18201
570-454-5367
seandonahue630@gmail.com

